WAIVER
SUPREME COURT OF THE UNITED STATES

Supreme Court Case

Edward Taupier

^ State of Connecticut
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

Q There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):
Signature.

Date: January?, 2021

Cl^pe or print) N.mp Mitchell S. Brody
la
0 Mr.
Mr.

y

□ Ms.
Q
IV

□ Mrs.

□ Miss

Office of the Chief State's Attorney, Appellate Bureau

Address 300 Corporate Place

City &

Rocky Hill, CT

Zip 06^

Phone 860-258-5807
A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER

IF PRO SE.

PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY

OF THIS FORM.

NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Norman A. Pattis, Esquire
383 Orange Street, 1st Floor New Hayen, CT 06511
Tel: (203) 393-3017 / Fax: (203) 393-9745 Email: npattis(^pattisandsmith.com

